Department of Homeland Security
   Ofﬁce of Inspector General

            Improvements Needed in Federal 

            Emergency Management Agency 

                Monitoring of Grantees





OIG-09-38                                      March 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      March 5, 2009

                                         Preface

The Department of Homeland Security Office of Inspector General was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Emergency
Management Agency’s grant management infrastructure to ensure effective monitoring
of grantees. It is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 


Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 4 


     Financial and Program Monitoring .............................................................................. 4 

     Unresolved Human Capital Issues ............................................................................... 8 

     Policies and Procedures, Monitoring Plans, and Integrated Systems ........................ 11 

     Need to Better Ensure Effective and Appropriate Use of Grants .............................. 14 

     Recommendations ...................................................................................................... 14 

     Management Comments and OIG Analysis .............................................................. 14 


     Contractors Are Performing Inherently Governmental Functions ............................. 17 

     Recommendations ...................................................................................................... 18 

     Management Comments and OIG Analysis .............................................................. 18 



Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 21 

     Appendix B:           Management Comments to the Draft Report ..................................... 25 

     Appendix C:           Major Contributors to this Report ...................................................... 29 

     Appendix D:           Report Distribution ............................................................................ 30 



Abbreviations
     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FY                    Fiscal Year            

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                     Public Law 110-53, Implementing Recommendations of the 9/11
                     Commission Act of 2007, directed the Department of Homeland
                     Security Office of Inspector General to review and evaluate the
                     grant management and oversight practices of the Federal
                     Emergency Management Agency. We reviewed the grant
                     management and oversight practices of 3 out of the 26 active and
                     52 total grant programs administered by the Federal Emergency
                     Management Agency: the State Homeland Security Program, the
                     Staffing for Adequate Fire and Emergency Response Program, and
                     the Emergency Food and Shelter Program.

                     Improvements are needed in the Federal Emergency Management
                     Agency’s grant management and oversight infrastructure to ensure
                     effective monitoring of grantees. Specifically, the Federal
                     Emergency Management Agency does not consistently and
                     comprehensively execute its two major oversight activities,
                     financial and program monitoring. This occurs because it has not
                     conducted the analyses and developed the plan of action required
                     by Public Law 109-295 Title VI, the Post-Katrina Emergency
                     Management Reform Act of 2006 as part of its strategic human
                     capital plan. In addition, financial and programmatic monitoring
                     policies, procedures, and plans are not comprehensive.

                     We also identified support contractors for the Federal Emergency
                     Management Agency that are performing inherently governmental
                     functions while carrying out duties associated with the oversight of
                     the Staffing for Adequate Fire and Emergency Response Program.
                     As a result, the Federal Emergency Management Agency does not
                     have adequate assurance that federal grant funds are being used
                     effectively and appropriately.

                     We made recommendations to the Administrator, Federal
                     Emergency Management Agency, to address the needed grant
                     management infrastructure improvements as well as the actions of
                     the support contractors performing inherently governmental
                     functions. In response to our report, the Federal Emergency
                     Management Agency generally concurred that grant management
                     improvements were needed; however, it did not agree that
                     contractors were performing inherently governmental functions.

      Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                           Page 1
Background
                   The Federal Emergency Management Agency (FEMA) was
                   created by a Presidential Executive order in 1979 and became part
                   of the U.S. Department of Homeland Security (DHS) in 2003. Its
                   mission is to reduce the loss of life and property and to protect the
                   Nation from all hazards, including natural disasters, acts of
                   terrorism, and other man-made disasters. Through the
                   appropriation for state and local programs, FEMA fulfills its role
                   as the principal component within DHS responsible for preparing
                   state and local governments to prevent, protect against, respond to,
                   and recover from incidents of terrorism and other catastrophic
                   events. The appropriation provides for grants, training, exercises,
                   and other support to assist federal agencies, states, territories,
                   tribal, and local jurisdictions.

                   On October 4, 2006, the President signed Public Law 109-295,
                   with Title VI entitled the Post-Katrina Emergency Management
                   Reform Act. The Act provided a renewed focus on FEMA’s
                   Regions and their relationship with state and local partners for
                   emergency management and preparedness. The Act also
                   established new leadership positions within DHS, transferred
                   additional functions to FEMA, and created and reallocated
                   functions to other components within the department. For
                   example, the Act transferred the mission, functions, staff, and
                   programs of the DHS Office of Grants and Training and other
                   major preparedness programs to FEMA, effective April 1, 2007.
                   As a result, FEMA directly oversees more than 80% of all grants
                   awarded by DHS.

                   At the time of the transfer, the Office of Grants and Training was
                   renamed the Office of Grant Programs; shortly thereafter it was
                   renamed the Grant Management and Operations Directorate. The
                   Grant Management and Operations Directorate centralized
                   FEMA’s grant management, analysis, and oversight capacity, and
                   was to provide the controls to ensure that billions of dollars
                   provided through grants and disaster assistance are appropriately
                   awarded, tracked, and monitored. During Fiscal Year (FY) 2008,
                   the Grants Management and Operations Directorate was renamed
                   the Grant Programs Directorate, and the majority of the financial
                   monitoring responsibility was transferred to the Regions.

                   In addition to the Grant Programs Directorate, several other
                   directorates have grant management and oversight responsibilities,
                   including Disaster Operations, Disaster Assistance, the National

    Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                         Page 2
               Preparedness Directorate, the Mitigation Directorate, and the U.S.
               Fire Administration. FEMA’s many grant programs vary from
               enhancing capabilities that focus on counter-terrorism and
               catastrophic events, to specific first-responder disciplines that
               strengthen capabilities for addressing hazards of all types.

               During FY 2007, FEMA awarded more than $10.6 billion in grants
               to state and local governments; territories; tribal governments;
               private, public, profit, and nonprofit organizations; and sponsoring
               agencies. These grants are intended to enhance preparedness,
               protection, response, recovery, and mitigation capabilities
               throughout the Nation. A breakdown of the grants by award type
               is shown in Table 1.

                                           Table 1
                                     FY 2007 Grant Awards
                Type of Grants               Number of    Amount Awarded
                                              Awards
                Assistance to Firefighters       6,436         $672,280,341
                Grants
                Preparedness Grants                788       $3,697,455,785
                Disaster Assistance Grants         129       $5,471,384,499
                Non-Disaster Grants                422         $785,490,791
                Total Awarded in                 7,775   $10,626,611,416.00
                FY 2007

               Public Law 110-53, Implementing Recommendations of the 9/11
               Commission Act of 2007, requires the DHS Office of Inspector
               General (OIG) to review and evaluate the grant management and
               oversight practices of FEMA, which has a total of 52 grant
               programs. Based on funding, number of grants, and type of
               program, we selected the following for review as representative of
               the active grants administered by FEMA: the State Homeland
               Security Program, Staffing for Adequate Fire and Emergency
               Response Program, and Emergency Food and Shelter Program.




Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 3
Results of Audit
                    Improvements are needed in FEMA’s grant management
                    infrastructure to ensure effective monitoring of grantees. Our
                    review determined that FEMA does not consistently and
                    comprehensively execute its two major oversight activities,
                    financial and program monitoring. This occurs because FEMA has
                    not implemented required analyses and a plan of action associated
                    with its strategic human capital plan. Also, FEMA’s financial and
                    programmatic monitoring policies, procedures, and plans are not
                    comprehensive. We also identified FEMA support contractors that
                    are performing inherently governmental functions while carrying
                    out duties associated with the oversight of the Staffing for
                    Adequate Fire and Emergency Response Program. As a result,
                    FEMA cannot adequately ensure that federal grant funds are being
                    used effectively and appropriately.

            Financial and Program Monitoring
                    FEMA staff monitors grant recipients, both financially and
                    programmatically, to ensure that project goals, objectives,
                    performance requirements, timelines, milestone completion,
                    budgets, and other related grant requirements are being met.
                    Monitoring involves (1) collecting financial and program status
                    reports as well as performance and administrative information
                    relative to each program; (2) analyzing the information; and
                    (3) taking appropriate actions. Monitoring is accomplished
                    through a combination of office-based reviews and on-site visits.

                    Financial Monitoring

                    The goal of FEMA’s financial monitoring is to ensure compliance
                    with federal grant regulations and objectives, and to seek
                    opportunities for organizational and operational improvements and
                    innovations. FEMA’s financial monitoring efforts also aim to
                    proactively educate grantees on how to make more informed
                    decisions; link outcome to funding; and identify potential waste,
                    fraud, abuse, and mismanagement. Financial monitoring includes
                    office-based reviews and on-site reviews conducted at the
                    grantee’s physical location. FEMA’s financial monitoring goal is
                    to visit all grantees at least once during the life cycle of the grant,
                    which, depending on the program, could last several years.

                    FEMA did not meet its financial monitoring goals for the State
                    Homeland Security Program, the Staffing for Adequate Fire and

     Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                          Page 4
               Emergency Response Program, and the Emergency Food and
               Shelter Program for FY 2007. For the State Homeland Security
               Program, FEMA completed five of nine comprehensive reviews of
               State Administrative Agencies planned for FY 2007 and none of
               the 19 planned desk reviews of discretionary award recipients. In
               addition to the five comprehensive reviews completed during
               FY 2007, FEMA’s financial monitoring staff conducted two
               unplanned State Homeland Security Program site reviews of
               American Samoa and Puerto Rico. According to FEMA officials,
               these unplanned reviews were conducted because significant issues
               arose at these sites that took precedence over the remaining
               planned reviews.

               The Grant Programs Directorate conducted minimal financial
               monitoring of the Staffing for Adequate Fire and Emergency
               Response Program during FY 2007, and none was planned for
               FY 2008. The only financial-related oversight of the Staffing for
               Adequate Fire and Emergency Response program during FY 2007
               were reviews of payment requests and evaluations of performance
               reports performed by support staff under contract with the program
               monitoring staff. These reviews were much less comprehensive
               than the financial monitoring activities described in FEMA’s
               financial monitoring policies and procedures for other programs,
               which include both office-based reviews and site visits.

               A FEMA official told us that financial monitoring in compliance
               with the Emergency Food and Shelter Program Responsibilities
               and Requirements document has not occurred since 2003 because
               of FEMA’s focus on other priorities, such as disaster assistance
               programs. The Emergency Food and Shelter Program financial
               oversight efforts for FY 2007 were limited to desk reviews of
               financial statements for the one grant recipient receiving funds, and
               the FEMA Emergency Food and Shelter Program officer’s
               participation in four teleconferences with the National Board
               (representatives from FEMA and six charities), local board, and
               local recipient organizations.

               Program Monitoring

               Program monitoring allows DHS to verify that grant funds are
               being administered in accordance with the guidance issued to
               grantees. Monitoring also provides an opportunity to
               collaboratively determine areas of concern, needs, and priorities so
               that DHS can effectively provide services to better ensure national



Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 5
               preparedness. Effective monitoring consists of both administrative
               (office-based) and strategic (on-site) monitoring.

               For the State Homeland Security Program, administrative
               monitoring includes an overall review and analysis of the grantee’s
               status on submission of quarterly and biannual reports, status of
               drawdown funding amounts, recent activities with drawdowns, and
               expiration and extension history of open grants. One office-based
               administrative monitoring review must be completed for each
               grantee. Strategic monitoring focuses on progress made toward
               investments, achieving state or urban area goals and objectives,
               and accomplishing national priorities. For FEMA preparedness
               programs, strategic monitoring was required for each State
               Administrative Agency (grant recipient) in FY 2007.

               The Grant Development and Administration Division, within the
               Grant Programs Directorate, completed its FY 2007 programmatic
               monitoring plan for the State Homeland Security Program,
               including site visits to all 56 states and territories. The Grant
               Development and Administration Division used its branch chiefs
               and preparedness officers to conduct administrative (office-based)
               and strategic (on-site) monitoring, despite having 11 vacant
               positions in the Division.

               The draft Staffing for Adequate Fire and Emergency Response
               Programmatic Monitoring Plan lists the types of monitoring
               activities to be performed by program staff. The monitoring
               activities include quarterly performance reviews, annual desk
               reviews, report submission compliance reviews, and site visits.
               The monitoring plan categorizes site visits as either reactive or
               proactive. Reactive site visits are conducted as concerns arise
               about a grantee’s performance. Proactive site visits are conducted
               on 1% to 5% of Staffing for Adequate Fire and Emergency
               Response grants, to include activities such as examining receipts
               for expenditures, procurement records, and policies and procedures
               governing awarded grant activities.

               During FY 2007, program monitoring of Staffing for Adequate
               Fire and Emergency Response grant recipients was limited to
               quarterly reviews of payment requests and evaluations of
               performance status reports. As of July 2008, only one reactive site
               visit had been conducted since the program was established in
               2005. No annual reviews or compliance reviews were conducted
               during FY 2007.



Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 6
               Approximately 12,000 subrecipients received Emergency Food
               and Shelter Program funds from one grant recipient during
               FY 2006. According to a former Emergency Food and Shelter
               Program officer, program monitoring of the one grant recipient
               ceased in 2003 because staff were reassigned to other FEMA
               priorities, such as disaster assistance programs.

               Monitoring Documentation

               FEMA monitoring staff did not consistently maintain financial
               monitoring documentation. The FEMA FY 2007 financial
               monitoring plan lists specific documentation to be maintained in
               the monitoring files, including audit histories, monitoring histories,
               state strategy and application reviews, and financial reporting
               analyses. Supporting documentation maintained by the financial
               monitoring staff was voluminous but not well organized, making it
               difficult to ensure that all required documentation was maintained
               and analyses were performed.

               Likewise, program monitoring files for the State Homeland
               Security Program did not contain consistent documentation. For
               example, of the nine files reviewed, three did not include copies of
               the Application for Federal Assistance (Standard Form 424) or any
               accompanying documentation submitted by the grantee. Six files
               contained copies of the application, but three of those six did not
               contain the accompanying documentation, which includes items
               such as investment justifications and budget information.

               In addition, monitoring procedures for the State Homeland
               Security Program dictate that a “continuously robust and
               interactive relationship” should exist between grantees and fellow
               federal homeland security partners, but the procedures do not
               specify how this relationship should be documented or what
               evidence would validate such a relationship. Of the nine files
               reviewed, five files contained very little documentation—such as
               e-mails, correspondence, or documented telephone
               conversations—to demonstrate contact with the grant recipients.
               The remaining four files contained some documents showing a
               pattern of communication between the program staff and grant
               recipient.

               Without consistent and organized documentation, FEMA has little
               assurance that documentary evidence maintained was adequate to
               support the conclusions made in the monitoring and site visit
               reports. The existing condition of files did not readily allow for an


Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 7
               independent reviewer to assess the degree of compliance with
               monitoring policies and procedures.

       Unresolved Human Capital Issues

               Human capital issues have significantly affected FEMA’s ability to
               monitor grantees. Congress has recognized these issues and
               addressed them in the Post-Katrina Emergency Management
               Reform Act (the Act) dated October 4, 2006. The Act transferred
               functions such as the DHS Office of Grants and Training to
               FEMA, and also required FEMA to develop and submit to the
               Congress a Strategic Human Capital Plan (the Plan) to Congress by
               April 2007.

               Congress required that this agency-level Plan include a workforce
               gap analysis, including an assessment of present and future critical
               skills and competencies needed to support the mission and
               responsibilities, and effectively manage FEMA. The Plan was to
               cover the entire FEMA workforce and was intended to address
               staffing levels, including actual and projected gaps in the
               workforce, and include specific strategies for developing, training,
               deploying, compensating, motivating, and retaining the workforce.
               The Act also required the Plan to include a plan of action for
               developing and reshaping the FEMA workforce that would address
               the identified gaps in critical skills and competencies.

               FEMA submitted the Plan to Congress in June 2008. However, the
               Plan does not provide either the detailed human capital analyses or
               plan of action for resolving the human capital issues called for in
               the Act. Instead, the Plan describes a number of strategies and
               initiatives planned or under way in FEMA, and states that it
               “provides a map of how the Agency will create an environment
               and culture that supports, nurtures, and sustains a workforce that
               will be up to any challenge.”

               The Plan states that FEMA is engaged in determining the proper
               size of its workforce, and that over the next year FEMA will
               perform a detailed requirements analysis to establish future staffing
               needs for each Directorate, Region, and critical support function.
               Specifically, FEMA intends to conduct the right-sizing analysis on
               a “bottom-up” basis, as each Directorate is to examine its own role
               in support of the FEMA Vision. Further, the Plan states that
               FEMA will undertake a comprehensive “Business Process
               Re-Engineering” exercise to evaluate proposed staffing structures.


Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 8
               However, the Plan does not provide timeframes for completing
               these analyses and implementing corrective actions.

               Separate Strategic Human Capital Plan of Action for Grant
               Management and Oversight

               The Grant Programs Directorate has initiated its own actions to
               begin addressing grant management and oversight workforce
               issues, unrelated to the Post-Katrina Emergency Management
               Reform Act. However, the actions were initiated without the
               benefit of a comprehensive strategic human capital plan at either
               the Agency or Directorate level for grant management and
               oversight functions.

               The Grant Programs Directorate contracted for a study to analyze
               its workforce and address the number of personnel needed to
               perform specific grant functions such as pre-award, post-award,
               and closeout for active Headquarters-awarded grant programs.
               However, since this study was unrelated to the requirements of the
               Post-Katrina Emergency Management Reform Act, the study did
               not fully address the Act requirements, such as an analysis of
               workforce skill mix and capabilities and identification of required
               competencies and associated training to perform specific grant
               management and oversight responsibilities. The study was
               completed in January 2009.

               According to a FEMA official, the Grant Development and
               Administration Division also performed a workload analysis that
               defined clear delineations of responsibilities between supervisors
               and staff. The study determined necessary changes in work
               assignments and primary responsibilities across role levels,
               regions, and field-based staff. The study also revised role
               descriptions for director, manager, and staff positions; established
               standards for roles and responsibilities throughout the entire
               division and across its programs; and recommended process and
               program changes to ensure integration. This additional study did
               not address the Post-Katrina Emergency Management Reform Act
               requirements, as it was performed prior to the Act.

               Since a majority of grant management and oversight functions are
               conducted independent of critical disaster recovery activities,
               FEMA should take the approach of conducting the analyses
               required by the Act and developing a separate plan of action for all
               staff tasked with grant management and oversight responsibilities
               rather than follow the current plan to analyze each directorate


Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 9
               separately. Future workforce actions for grant management and
               oversight should be limited until a comprehensive human capital
               plan for grant management and oversight is implemented that fully
               responds to the requirements of the Act.

               Grant Monitoring Staffing Issues

               Staffing issues have affected the amount of financial and
               programmatic grant monitoring work being conducted both at
               Headquarters and in the Regions.

               During the second half of FY 2007, FEMA concentrated on
               establishing a new Grant Programs Directorate and implementing a
               new payment system. To accomplish these tasks, eight of nine
               staff members were transferred from financial management to
               these activities. As a result, the State Homeland Security Program
               financial monitoring activities were conducted only during the first
               half of the fiscal year.

               FEMA’s Grant Development and Administration Division within
               the Grant Programs Directorate completed its FY 2007
               programmatic monitoring plan despite having 11 vacant positions
               in the Division. The Grant Development and Administration
               Division accomplished this task, including site visits to all
               56 states and territories, by using branch chiefs and preparedness
               officers to conduct administrative (office-based) and strategic (on­
               site) monitoring. For example, two of the three branch chiefs, who
               are responsible for overseeing between 15 and 24 states and
               territories, individually performed program monitoring of one or
               two states in addition to their normal oversight and supervisory
               duties. As of August 2008, only 2 of the 11 vacancies were filled.

               Staff within the Emergency Food and Shelter Program declined
               from six in 1997 to one in 2008. According to FEMA program
               officials, this decline led to a significant decrease in financial and
               program monitoring. Having one staff member responsible for
               both monitoring activities reduces FEMA’s ability to ensure the
               appropriate use of grant funds. Regarding the Staffing for
               Adequate Fire and Emergency Response program, Grant Programs
               Directorate personnel explained that while staff was available to
               process Staffing for Adequate Fire and Emergency Response grant
               awards, no staff was available to conduct financial monitoring
               because the unit has five vacant positions.




Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 10
               Staffing issues have also affected the Regions. In an effort to
               implement the requirements of the Post-Katrina Emergency
               Management Reform Act, FEMA regionalized specific business
               functions such as cash analysis and closeout for certain grant
               programs, audit resolution, and financial monitoring.
               Implementing these actions, which began to take effect in
               FY 2008, included hiring two grant management specialists for
               each Region. Shortly after implementation, one of the two
               positions in each Region was reassigned as a branch chief for a
               newly created grant branch, reducing the number of staff dedicated
               to grant monitoring and oversight. A FEMA Headquarters
               manager said that creating the Grant Branch Chief was necessary
               to ensure that adequate oversight and direction were available in
               the Regions. Regional personnel, however, generally agreed that
               one person fully dedicated to supplement the already existing
               regional oversight personnel was not adequate to conduct their
               current oversight responsibilities.

               Organizational Stability and Changes in Leadership

               The Grant Programs Directorate went through two reorganizations
               after the Office of Grants and Training was transferred to FEMA in
               April 2007. Several key positions, such as the Deputy Assistant
               Administrator, and the Director and Deputy Director of Grant
               Development and Administration have been vacant for much of
               2008. The Deputy Assistant Administrator position was filled in
               June 2008, but the top two leadership positions within the Grant
               Development and Administration Division were not filled until the
               end of calendar year 2008. These two positions represent the
               programmatic subject matter expertise for the Grant Programs
               Directorate’s preparedness programs and are critical positions to be
               filled.

       Policies and Procedures, Monitoring Plans, and Integrated
       Systems
               Financial and programmatic monitoring policies, procedures, and
               plans describe the monitoring activities required of FEMA grant
               oversight staff. Monitoring activities generally include desk
               reviews and site visits.

               Policies and Procedures for FEMA Monitoring Activities

               Policies and procedures of the State Homeland Security Program
               are implemented through its FY 2007 Administrative and Strategic

Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 11
               Monitoring Protocols for Eastern, Central, and Western Division
               Preparedness Officers. The protocol requires that a post-site visit
               letter be sent as soon as the final monitoring report has been fully
               approved, and the subsequent monitoring report to be issued within
               30 days. Our review of nine monitoring files determined that
               monitoring reports were not issued within the required timeframes.
               Program officials said that the protocol indicated that the reports
               were to be submitted to the first line supervisor within 30 days.
               However, the protocol did not specify to whom the reports were to
               be submitted.

               No financial monitoring policies or procedures exist for the
               Staffing for Adequate Fire and Emergency Response program.
               The draft Staffing for Adequate Fire and Emergency Response
               Programmatic Monitoring Plan contains policies and procedures
               for program monitoring. This document includes information on
               types of programmatic monitoring; the duties and responsibilities
               of subject matter experts; and the frequency of performance
               reviews, including annual desk reviews, report submission
               compliance reviews, and site visits. However, since the program’s
               inception in FY 2005, the document has remained in draft.

               No monitoring policies or procedures exist for the Emergency
               Food and Shelter Program. The cooperative agreement between
               FEMA and the grant recipient is being used for the Emergency
               Food and Shelter Program in place of formal monitoring policies
               or procedures. While the cooperative agreement includes financial
               and program reporting requirements for the grantee, it does not
               contain any specific monitoring requirements for FEMA.

               Monitoring Plans

               The State Homeland Security Program financial monitoring plan
               for FY 2007 did not include enough site visits to represent the
               grant universe. This plan indicated that staff would visit nine
               states for the Homeland Security Grant Program/State Homeland
               Security Program and cover FY 2006 Homeland Security Grant
               Program/ State Homeland Security Program funding. All 56 states
               and territories were awarded Homeland Security Grant
               Program/State Homeland Security Program funds, totaling
               $528,165,000. The nine states planned for review represented only
               16% of the universe; only five states and two territories were
               ultimately completed. The FY 2008 plan included site visits to
               34 states and territories, a far more representative sample.



Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 12
               Site visits included in the Staffing for Adequate Fire and
               Emergency Response program monitoring plans also were not
               representative given the number of active grantees. The Staffing
               for Adequate Fire and Emergency Response program staff
               followed a draft Programmatic Monitoring Plan, which required
               that site visits be performed on either a reactive or proactive basis.
               Reactive site visits may be conducted at any time as dictated by a
               grantee’s performance issues or program office concerns. To
               monitor grants proactively, approximately 1% to 5% of Staffing
               for Adequate Fire and Emergency Response grants (hiring of
               career firefighters and the recruitment and retention of volunteer
               firefighters) will be selected for a grantee site visit during each
               calendar year. The plan further states that grantees should not
               receive more than one site visit over the life cycle of the grant
               without identified cause. This sample is far less than the site visits
               conducted for other program monitoring activities.

               Integrated Grant Management Systems

               While FEMA intends to implement two grant management
               systems—the Emergency Management Mission Integrated
               Environment for disaster grants and the Non-Disaster system for
               non-disaster grants—grant programs are being phased into these
               systems beginning in October 2008, with final implementation
               years away.

               Development of comprehensive systems has been extremely slow
               to materialize, partly because of a lack of staff tasked to create and
               build them. The FEMA Information Technology Division cited a
               lack of adequate funding as a major challenge. Also, the FEMA
               Information Technology Division has a large number of customers
               to serve, but the scope of the systems and the potential requirement
               for the systems to handle all DHS grant programs (and the
               resulting increased workloads) have not been determined.

               Gathering data from FEMA’s grant processes is extremely time-
               consuming. Data analysis is cumbersome because the systems do
               not interface and some manual systems still exist. Integrated
               systems and advanced technology would make grant processes run
               more efficiently, from grant application to closeout. In addition,
               standardization would increase FEMA’s efficiency and improve its
               ability to monitor and analyze grant programs.




Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 13
       Need to Better Ensure Effective and Appropriate Use of
       Grants
               FEMA’s financial and programmatic monitoring activities are
               critical parts of an effective grant oversight program. FEMA needs
               an appropriate oversight infrastructure to ensure that all financial
               and programmatic monitoring activities can be accomplished, as
               specified in its monitoring plans. Key components of this
               infrastructure include implementation of a strategic human capital
               plan and associated workforce analysis, adequate staffing, formal
               training, comprehensive policies and procedures, realistic and
               representative monitoring plans, consistent documentation of
               monitoring activities, and integrated grant management systems.

               Effective oversight will ensure that grantees have adequate internal
               controls, grant funds are being used as intended, grant programs
               are carried out as prescribed, and grantees are complying with the
               terms and condition of their grant award agreements.

       Recommendations
               We recommend that the Administrator, Federal Emergency
               Management Agency, direct the Assistant Administrator for Grant
               Programs Directorate to:

               Recommendation 1: For all grant management and oversight
               personnel, conduct the analyses mandated in the Post-Katrina
               Emergency Management Reform Act of 2006 and develop a plan of
               action with milestones for resolving identified human capital
               issues.

               Recommendation 2: Develop comprehensive grant management
               and monitoring policies and procedures, including details on
               conducting financial and programmatic monitoring activities, the
               number and frequency of site visits, and the need to adequately
               document the results.

       Management Comments and OIG Analysis

               We obtained written comments on a draft of this report from
               FEMA’s Assistant Administrator, Grant Programs Directorate.
               We have included a copy of FEMA’s response in its entirety as
               Appendix B.



Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 14
               FEMA Response to Recommendation #1

               FEMA’s comments indicate concurrence in part with our
               recommendation regarding developing a plan of action with
               milestones for resolving identified human capital issues. FEMA’s
               response does not address human capital issues for offices other
               than the Grant Programs Directorate. The Grant Programs
               Directorate is progressing with recruiting and retaining the
               workforce needed to fulfill FEMA’s mission and responsibilities as
               mandated in the Post-Katrina Emergency Management Reform Act
               of 2006. According to FEMA, since the beginning of the audit, a
               significant number of vacancies have been filled while other
               positions are being advertised on a regular basis. The Grant
               Development and Administration Division is performing a
               workload analysis that includes the following:

                   (1) Defining clear delineations of responsibilities between
                       supervisory and staff roles;
                   (2) Determining necessary changes in work assignments and/or
                       primary responsibilities across role levels, regions, and
                       field-based staff;
                   (3) Revising position descriptions for director, manager and
                       staff positions;
                   (4) Establishing standards for roles and responsibilities across
                       all Grant Development and Administration Divisions and
                       programs; and
                   (5) Recommending process and/or program changes to ensure
                       successful integration.

               The Grants Management Division was recently reorganized in an
               effort to maximize use of its human capital resources.
               Administrative and financial staff are now assigned to work with
               states in a way that more effectively supports and complements the
               work of program staff in the Grant Development and
               Administration Division.

               FEMA Response to Recommendation #2

               FEMA’s comments indicate concurrence with our recommendation
               regarding developing comprehensive grant management and
               monitoring policies and procedures. The Grants Management
               Division has developed comprehensive and standardized financial
               monitoring protocols for both desk reviews and on-site monitoring.
               These tools also provide instructions regarding official
               documentation required for the files.


Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 15
               The FEMA Monitoring Plan identifies the required financial
               monitoring activities in FEMA. To complement the headquarters
               plan, the ten FEMA Regions will prepare a plan which will include
               the grants to be monitored, the type of monitoring, and the
               monitoring schedule.

               The Grant Development and Administration Division recently
               updated its monitoring tools and policy directives for the
               Homeland Security Grant Program, the Transit Security Grant
               Program, and the Emergency Management Performance Grant
               Program. The policy directives clearly outline the purpose and
               need for programmatic monitoring and on-site visits.

               The Grant Development and Administration Division has
               developed a Microsoft Access database to facilitate program
               monitoring of the Homeland Security Grant Program. This
               database includes a comprehensive review of each grantee’s
               investments for all current grants and requires a score to be
               assigned to demonstrate progress achieved for each objective in the
               approved State and/or Urban Area Homeland Security Strategy.
               For FY 2009, the database will include the FY 2006, FY 2007, and
               FY 2008 investments. This updated database also includes a
               section on programmatic requirements to ensure that all grant
               program requirements are being met timely. A standard on-site
               monitoring toolkit, developed by the Grant Development and
               Administration Division for the Transit Security Grant Program
               and Emergency Management Performance Grant Program,
               includes a section on program requirements specific to each
               program.

               OIG Analysis of FEMA’s Responses to Recommendations #1
               and #2

               We consider FEMA’s proposed actions responsive to the
               recommendations for the Grant Program Directorate. However,
               FEMA’s response does not address the human capital issues or
               comprehensive grant management and monitoring policies and
               procedures for other offices within FEMA tasked with grant
               management and oversight responsibilities, such as the Individual
               Assistance Division within the Disaster Assistance Directorate. In
               this regard, recommendations #1 and #2 are considered resolved
               but will remain open pending receipt of documentation and target
               dates that address implementation of actions to resolve human


Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 16
               capital issues, and development of comprehensive grant
               management and monitoring policies and procedures, for other
               offices within FEMA tasked with grant management and oversight
               responsibilities.

       Contractors Are Performing Inherently Governmental
       Functions
               Office of Management and Budget (OMB) Circular No. A-76
               Revised, Performance of Commercial Activities, May 29, 2003,
               establishes federal policy for the competition of commercial
               activities, and also defines activities performed by government
               personnel as either inherently governmental or commercial. An
               inherently governmental activity is one so intimately related to the
               public interest as to mandate performance by government
               personnel. These activities require the exercise of substantial
               discretion in applying government authority and in making
               decisions for the government, including procedures and processes
               related to the oversight of monetary transactions or entitlements.

               The circular further states that for contracted activities, the
               contractor does not have the authority to decide on courses of
               action. However, the contractor may be tasked with developing
               options or implementing courses of action decided upon by the
               agency, with agency oversight.

               Despite these requirements, contract staff are approving Staffing
               for Adequate Fire and Emergency Response grant payments
               without FEMA program personnel review and approval. Contract
               staff are also evaluating quarterly status reports submitted by
               Staffing for Adequate Fire and Emergency Response grant
               recipients. Our discussions with program and contractor personnel
               disclosed that Staffing for Adequate Fire and Emergency Response
               contractors have the authority to make decisions on payment
               requests and program status, which are prohibited activities
               according to OMB Circular No. A-76. As such, contractors are
               performing work that constitutes inherently governmental
               functions.

               FEMA has been using contract staff for these inherently
               governmental functions since 2006 due to lack of FEMA staff.
               The Staffing for Adequate Fire and Emergency Response program
               manager said that he does not have the time to “look over the
               shoulder” of the contract staff while they are reviewing quarterly
               reports and requests for funds. According to the program manager,

Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 17
               he has articulated specific review requirements to the contract
               staff, and matters outside of those review requirements are vetted
               and discussed with him. Staffing for Adequate Fire and
               Emergency Response program officials told us that they have been
               requesting staff since the program started, but their requests have
               not been approved. They said that they had recently submitted
               another request and additional staff were approved.

       Recommendations
               We recommend that the Administrator, Federal Emergency
               Management Agency:

               Recommendation 3: Immediately stop the practice of contractor
               personnel approving Staffing for Adequate Fire and Emergency
               Response payments and making program decisions resulting from
               quarterly performance report evaluations.

               Recommendation 4: Establish and implement monitoring
               procedures to ensure that approval and program decision-making
               activities are performed by FEMA employees, and clarify the roles
               and responsibilities of Staffing for Adequate Fire and Emergency
               Response support contractors, limiting the contractors to
               developing options or implementing courses of action, but not
               making decisions on the courses of action.

       Management Comments and OIG Analysis
               We obtained written comments on a draft of this report from
               FEMA’s Assistant Administrator, Grant Programs Directorate.
               We have included a copy of FEMA’s response in its entirety as
               Appendix B.

               FEMA’s Response to Recommendation #3

               FEMA’s comments indicate non-concurrence with our
               recommendation on stopping the practice of allowing contractor
               personnel to approve Staffing for Adequate Fire and Emergency
               Response payments and make program decisions. According to
               FEMA, in processing funds requests, the ultimate decision to
               disburse funds to a grantee is made by federal staff in the FEMA
               Chief Financial Officer’s organization, which requests that
               Treasury issue funds to the grantee. Prior to that decision, there is
               a range of reviews which evaluate the appropriateness of the
               grantees’ request for funds.

Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 18
               Specifically, once a request is submitted by a grantee, the program
               office decides whether the request: (1) conforms with the original
               statement of work; (2) is within the formulaic paradigm that
               determines how much money is available to the grantee; and (3)
               has any aspects which are contrary to prior approvals of similar
               requests. These procedures are established by federal staff and are
               merely followed by the contractor staff. Therefore, FEMA
               contends that it is the federal employees of the program office who
               make the determination that a request should proceed to processing
               in the Chief Financial Officer’s Office.

               Quarterly reports which do not include requests for funds are
               processed under a similar set of review steps. That is, a reviewer
               of the report, whether it is a federal employee or a contractor, must
               adhere to procedure and precedent in performing the review. In no
               instance does contractor staff make decisions on their own that
               constitute inherently governmental actions as defined in the
               Federal Acquisition Regulation.

               FEMA has obtained approval to hire additional staff in the
               Assistance to Firefighter Grant Program office, and human
               resource actions to implement this resolution have been initiated.
               Nevertheless, until those actions have been completed, FEMA will
               continue to use contractors in its Assistance to Firefighter Grant
               Program office to process routine grant management actions–funds
               requests, quarterly reports, and amendment requests–under the
               tightly controlled process briefly outlined above.

               FEMA’s Response to Recommendation #4

               FEMA’s comments indicate non-concurrence with our
               recommendation on establishing monitoring procedures to ensure
               that only FEMA employees make approvals and program
               decisions. According to FEMA, it does not allow contractors to
               make program decisions. Contractors work under governmental
               supervision, and decisions that contract staff may communicate to
               grantees are either those that have been vetted through precedent,
               or have been specifically approved by governmental oversight.

               OIG Analysis of FEMA’s Responses to Recommendations #3
               and #4

               We acknowledge that federal staff within the Chief Financial
               Officer’s office process requests for payments. However, it is


Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 19
               contract staff that are approving Staffing for Adequate Fire and
               Emergency Response grant requests for payment without FEMA
               program personnel review and approval, regardless of whether the
               contract staff are following procedures established by federal staff.
               Therefore, FEMA should reevaluate its approval process to ensure
               that approval and program decision-making activities are
               performed by FEMA employees, and clarify the roles and
               responsibilities of Staffing for Adequate Fire and Emergency
               Response support contractors, limiting the contractors to
               developing options or implementing courses of action but not
               making decisions on the courses of action. Recommendations #3
               and #4 are considered unresolved until FEMA reevaluates and
               modifies its program approval process, or until federal employees
               assume the responsibilities currently performed by contract support
               staff.




Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                     Page 20
Appendix A
Purpose, Scope, and Methodology

                      The purpose of our audit was to determine the extent to which
                      FEMA effectively manages grant resources to provide sufficient
                      financial and programmatic monitoring of grantees. Specifically,
                      our objectives were to assess whether FEMA (1) instituted
                      appropriate organizational structures and a workforce skill mix to
                      achieve its grant management responsibilities; (2) identified gaps
                      or deficiencies in its skill mix; (3) implemented processes and
                      procedures to monitor grantees; and (4) identified a means to
                      improve grant management operations.

                      We initially met with FEMA officials responsible for grant
                      management and oversight, including program and financial
                      monitoring for each directorate: Grant Programs, U.S. Fire
                      Administration, Mitigation, Disaster Operations, Disaster
                      Assistance, and National Preparedness. We interviewed staff
                      tasked with financial and programmatic monitoring of specific
                      grant programs, including the State Homeland Security Program,
                      the Staffing for Adequate Fire and Emergency Response Program,
                      and the Emergency Food and Shelter Program.

                      We also interviewed FEMA regional staff regarding financial
                      monitoring and Office of the Chief Financial Officer staff
                      responsible for processing Staffing for Adequate Fire and
                      Emergency Response payments, as well as the contractors
                      responsible for reviewing payment requests and evaluating
                      quarterly status reports for the Staffing for Adequate Fire and
                      Emergency Response Program. We met with FEMA’s Human
                      Capital and Information Technology Divisions to discuss
                      processes, functions, and activities related to grant management
                      and oversight. In addition, we met with DHS and FEMA officials
                      to obtain their views and opinions on effectively managing grant
                      resources. We obtained written responses regarding the Post-
                      Katrina Emergency Management Reform Act and the Strategic
                      Human Capital Plan from the Strategic Planning Office,
                      Transformation Office, and the Human Capital Office. Our audit
                      coverage included program and financial information and statistics
                      for FY 2007 through FY 2008, although other periods were
                      included as deemed necessary to satisfy the audit objectives.

                      We conducted our fieldwork at FEMA Headquarters, and at the
                      Grant Programs, Mitigation, Disaster Assistance, Disaster
                      Operations, and National Preparedness Directorates, all located in
                      the Washington, DC, metropolitan area.




       Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                            Page 21
Appendix A
Purpose, Scope, and Methodology

                      Our audit also consisted of:

                      �	 A review of FEMA’s organizational structure and workforce.
                      �	 A review of the current skills mix and capabilities included in
                         position descriptions for the grant management and oversight
                         workforce, including Headquarters and regional staff.
                      �	 An assessment of training and development requirements for
                         the grant management workforce.
                      �	 A review of contracts to identify staff tasked with grant
                         functions and activities for the selected grant programs.
                      �	 A review of policies, procedures, protocols, and plans for
                         monitoring the selected grant programs.
                      �	 A review of supporting documentation regarding financial and
                         programmatic monitoring activities for the selected grant
                         programs.

                      Our review covered financial and programmatic monitoring
                      conducted during FY 2007, which consisted of funds awarded in
                      FY 2006. We judgmentally selected a sample of grant programs
                      for review based on funding, number of grants, and type of
                      program. Therefore, our test results represent the characteristics of
                      our judgmental sample and were not projected to the population
                      from which the sample was selected. We selected our sample from
                      active disaster, non-disaster, and preparedness grants administered
                      by FEMA as of January 2008. This included 26 active grant
                      programs, with approximately 6,061 grant awards totaling
                      $3,178,677,987. FEMA currently has 52 grant programs.

                      For financial monitoring, we selected programs monitored by the
                      Financial Accountability and Oversight Division within the Grant
                      Programs Directorate, since this division oversees non-disaster and
                      preparedness grants, along with the Assistance to Firefighters
                      Grant Program. We reviewed support documentation for five
                      states and two territories included in the FY 2007 Financial
                      Monitoring Plan for the Homeland Security Grant Program/ State
                      Homeland Security Program.

                      For program monitoring, we selected grant programs based on
                      funding, number of grants, type of program, type of award cycle,
                      information obtained through interviews, and current and planned
                      DHS OIG audit work. The three grant programs we chose for
                      review were (1) State Homeland Security Program, (2) Staffing for
                      Adequate Fire and Emergency Response, and (3) Emergency Food
                      and Shelter Program.


       Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                            Page 22
Appendix A
Purpose, Scope, and Methodology

                      For the State Homeland Security Program, a formula grant included
                      as part of the Homeland Security Grant Program, the total universe
                      consisted of 56 states and territories including the District of
                      Columbia. The Grant Development and Administration Division
                      within the Grant Programs Directorate was responsible for program
                      monitoring, and the former Office of Grant Operations was
                      responsible for financial monitoring. The State Homeland Security
                      Program funds allocated for FY 2006 totaled $528,165,000. Our
                      sample included nine geographically dispersed states and territories
                      awarded $76,050,000, which represents 16% of the grantees and
                      14% of the FY 2006 funds awarded.

                      For the Staffing for Adequate Fire and Emergency Response
                      Program, approximately 265 project grants were awarded from the
                      FY 2006 appropriation, for a total of $105,142,102. The Grant
                      Development and Administration Division within the Grant
                      Programs Directorate was responsible for program monitoring, and
                      the former Office of Grant Operations was responsible for
                      financial monitoring. We judgmentally selected a 10% sample to
                      review a variety of grantees, based on regions, program types,
                      state, department type, award amount, and service area. The
                      selection resulted in a review of 27 grant recipients, totaling
                      $11,584,857. In addition, we reviewed the only site visit
                      conducted for the program, which covered $283,759 from FY 2005
                      grant awards. DHS awarded 162 Staffing for Adequate Fire and
                      Emergency Response grants from the FY 2005 appropriation,
                      totaling $64,370,976.

                      For the Emergency Food and Shelter Program, our review covered
                      financial and programmatic monitoring of these formula grants
                      conducted during FY 2007. The Individual Assistance Division
                      within the Disaster Assistance Directorate was responsible for both
                      program and financial monitoring. During FY 2007, the
                      monitoring plan covered one recipient. However, funds are
                      distributed to more than 12,000 social service agencies, both
                      private nonprofit and public organizations, as subrecipients. The
                      funding allocated for FY 2006 was $151,470,000.

                      We conducted our audit from February 2008 through August 2008
                      under the authority of the Inspector General Act of 1978, as
                      amended, and in accordance with generally accepted government
                      auditing standards. Those standards require that we plan and
                      perform the audit to obtain sufficient, appropriate evidence to
                      provide a reasonable basis for our findings and conclusions based
                      on our audit objectives. We believe that the evidence obtained


       Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                            Page 23
Appendix A
Purpose, Scope, and Methodology

                      provides a reasonable basis for our findings and conclusions based
                      on our audit objectives.




       Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                            Page 24
Appendix B
Management Comments to the Draft Report




      Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees 


                                           Page 25 

Appendix B
Management Comments to the Draft Report




      Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees 


                                           Page 26 

Appendix B
Management Comments to the Draft Report




      Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees 


                                           Page 27 

Appendix B
Management Comments to the Draft Report




      Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees 


                                           Page 28 

Appendix C
Major Contributors to this Report

                      Michael Siviy, Director, Grants Management Division
                      Inez Jordan, Audit Manager
                      Patricia Plummer, Program Analyst (Team Leader)
                      Mark S. Phillips, Auditor (Team Leader)
                      Tierney Davis, Program Analyst
                      Hortencia Francis, Program Analyst
                      Brandon Landry, Program Analyst
                      Andre Marseille, Program Analyst
                      Amy Nase, Auditor




       Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                            Page 29
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Assistant Administrator, Disaster Assistance Directorate
                      Director, Office of Policy and Program Analysis
                      Director, Office of Management
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




       Improvements Needed in Federal Emergency Management Agency Monitoring of Grantees

                                            Page 30
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
